mwe.com
Paul W. Hughes
Attorney at Law
phughes@mwe.com
+1 202 756 8981

February 19, 2020
BY HAND DELIVERY
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Amy Corbitt v. Michael Vickers
No. 19-679

Dear Mr. Harris:
I respectfully oppose the 30-day extension request sought by respondents in this matter. The
question presented in this case is related to that presented in several other co-pending petitions,
including No. 19-676, Zadeh v. Robinson, and No. 18-1287, Baxter v. Bracey. Petitioner submits that it
would aid the Court for these petitions to be considered together.
In recognition of obligations identified by respondent’s counsel, petitioner suggests a deadline of
March 23 for the brief in opposition, a 14-day extension of time. Petitioner will then waive the 14-day
waiting period, requesting distribution of this case on April 1, for the April 17, 2020 conference.

Respectfully,

_______________________
Paul W. Hughes
cc: counsel for respondent

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

